No.

 

 

IN THE

Supreme Court of the Anited States

FRED J. EYCHANER,
PETITIONER,
v.

CITY OF CHICAGO, RESPONDENT.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE APPELLATE COURT OF ILLINOIS

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,867 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 26, 2021.

 

Colin Casey Hog&n
Wilson-Epes Printing Co., Inc.
